Office of
Inspector General



              OPERATING AND PEFORMANCE PLAN

                  FISCAL YEARS 2002-2003




                 FARM CREDIT ADMINISTRATION
                                              Table of Contents

Mission, Objectives, and Goals and Assumptions.............................................. Tab 1

Products and Services and Performance Measures ...........................................Tab 2

Staffing and Resource Needs .............................................................................Tab 3

IRM Planning Call ...............................................................................................Tab 4

Budget and Justifications ....................................................................................Tab 5

Appendices

         Audit Plan .................................................................................................Tab 6
                        MISSION AND OBJECTIVES
                      OFFICE OF INSPECTOR GENERAL

                                        MISSION

The mission of the Office of Inspector General (OIG) is to be an agent of positive
change, striving for continuous improvement in the Farm Credit Administration’s (FCA
or Agency) management and program operations.

                               OBJECTIVES and GOALS

● Audit and evaluate the Agency’s programs and operations to promote economy,
  efficiency and effectiveness.

   1. Deliver quality audit and inspection products and services that are useful to the
      Board, management and Congress.
   2. Provide technical advice and assistance to Agency officials in developing sound
      management information and financial reporting systems in streamlining
      programs and organizations.
   3. Continuously improve OIG staff, products and internal office administration.

● Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud,
  waste abuse and mismanagement in Agency programs and operations.

   1. Effectively investigate and report administrative and criminal violations relating to
      FCA programs and personnel.
   2. Educate employees on their responsibility and report wrongdoing to the IG.
   3. Provide relevant information on results of investigative activities to relevant
      parties.

● Review and make recommendations regarding existing and proposed legislation and
  regulations relating to Agency programs and operations and the Inspectors General
  community.

   1. Maintain an effective program for reviewing and commenting on proposed and
      existing legislation and regulations.

● Work with the Chairman and Agency management to improve program management
  within the Agency and in our own office; and work with the Inspectors General
  community and other related organizations to address government-wide issues.

   1. Build relationships with program managers based on a shared commitment to
      improving program operations and effectiveness.
   2. Provide leadership to the OIG community.
   3. Contribute to special project to improve the Agency.
                                  ASSUMPTIONS

Agency

From Strategic Plan



Office

   1. There will be no structural changes in the OIG staffing plan.
   2. The Agency will remain competitive in its compensation program.
   3. OIG contracting budget will be adequate to obtain additional subject matter
      expertise whenever specific evaluations require it.
   4. OIG training budget will be adequate to maintain leadership, technical, cultural
      and collaborative competencies.
                                PRODUCTS AND SERVICES
                              OFFICE OF INSPECTOR GENERAL
                                    FISCAL YEAR 2002
    Audits, Inspections, and Review Products. Approximately 6-10 evaluative
    reports per year (including annual financial audit). This includes technical advice
    and assistance to Agency officials in developing management information and
    financial reporting systems and in streamlining programs and organizations. It also
    includes survey production. At present, two surveys are produced in OIG for the
    direct benefit of the Agency for use in measuring performance. These two surveys
    are the Farm Credit System Survey and the Regulation Development Survey. In
    addition, each audit and inspection contains a customer survey (This is directly
    linked to FCA Strategic Plan.)

    Budget for FY 2002—$447,985................................................................ 2.7 FTE


    Investigative Function. Review of allegations. Testing information provided to
    determine whether an investigation should be opened. Maintaining OIG HOTLINE.
    Directing FCS Borrower issues to Agency components.

    Budget for FY 2002—$33,184.................................................................... .2 FTE


    Review and Comment on Proposed and Existing Regulations and Legislation.
    Responding to Congressional and Executive requests and inquiries. Reviewing and
    commenting on proposed and existing legislation and regulations effecting the
    Agency and the Inspectors General community.

    Budget for FY 2002—$16,592.................................................................... .1 FTE


    Outreach Program. Educating employees about OIG’s role within the Agency.
    Lend leadership to organizations directly contributing to the IG community. Making
    contributions to special projects and work groups for improving the Agency, the OIG
    community and the government. This includes but is not limited to: Semiannual
    reports to the Agency Chairman and Congress, participation external activities such
    as the President’s Council on Integrity and Efficiency as a member of the Executive
    Council on Integrity and Efficiency, Council of Counsels to Inspectors General. We
    also participate in Agency efforts, such as GPRA Initiative, Employee Council (work
    life issues), Telecommuting Pilot Program Coordinator, Administrative Burden
    Workgroup, Mentoring Program, EEO Advisory Committee, and the Federal
    Women’s Program.

    Budget for FY 2002—$331,840................................................................ 2.0 FTE
Footnote: Management, administrative support and leave are disbursed across the four program areas noted above.
          AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS
Agency               OIG                            Performance Measure                            Outcome/Impact
 Goal                Goal
1 and 3    1. Deliver quality audit,    Audits and inspections are relevant. Audit coverage     FCA programs and
              inspection, and           includes all mandated audits and at least 75% of        operations are more effective.
              review products and       those suggested by the Board and management.
                                                                                                Waste in Agency programs
              services that are
                                        Risk is addressed. 100% of OIG audits are               and operations is reduced.
              useful to the Board,
                                        performed in high risk/high $ programs and activities
              management and/or                                                                 Increased Agency
                                        and/or are tied to the Agency strategic planning
              the Congress.                                                                     compliance with laws,
                                        goals.
                                                                                                regulations and internal
                                        Findings are made during audit fieldwork are            policies and procedures.
                                        recognized and corrected by management prior to
                                                                                                The Agency’s stature and
                                        drafting of the audit report.
                                                                                                reputation is elevated in the
                                        Products are timely, i.e. average time to complete      eyes of Congress, the
                                        audits and issue draft reports will not exceed 6        Administration, and FCS,
                                        months.                                                 FCA employees and the
                                                                                                public.
                                        Audits are constructive. At least 75% of audit
                                        products contain recommendations to improve             FCA is more effective in
                                        Agency operations. The Agency accepts at least          carrying out its mission.
                                        80% of OIG recommendations.
                                                                                                The OIG is more effective in
                                        The Agency actually implements all corrective           promoting economy,
                                        actions prescribed by management decisions.             effectiveness and efficiency
                                                                                                within the Agency.
                                                                                                FCA continues to get an
                                                                                                unqualified audit opinion on
                                                                                                financial statements.
           2. Provide technical         The IG advises the Chairman concerning policy
              advice and                                                                        OIG input and advice
                                        direction or administrative priorities.
              assistance to Agency                                                              contributes to Agency
                                        OIG performs analysis and provides technical advice     decisions and actions that
              officials in developing
                                        to management concerning accounting,                    are more complete and valid
              sound management
                                        management systems and controls, and                    at their inception.
              information and
                                        performance measures.
              financial reporting                                                               Increase in management
              systems and in                                                                    requests for advice, review
              streamlining                                                                      and technical assistance.
              programs and
              organizations.


                                        Customer survey feedback is used to improve             Peer review reports provide
           3. Continuous
                                        products and services.                                  an unqualified opinion that
              improvement of OIG
                                                                                                OIG audit work meets or
              staff, products and
                                        OIG training ensures the technical proficiency of       exceeds quality audit
              internal
                                        staff.                                                  standards prescribed by
              administration.
                                        OIG implements administrative improvements              GAO and the PCIE/ECIE.
                                        identified through reviews of other Agency programs     Customer survey feedback
                                        and through staff involvement with the professional     evidences increased
                                        community.                                              satisfaction with report
                                                                                                practices.
                                                                                                The Inspector General’s
                                                                                                opportunity to facilitate
                                                                                                positive change within the
                                                                                                Agency is enhanced by the
                                                                                                quality and credibility of OIG
                                                                                                products and advice.
                                               INVESTIGATIONS
Agency             OIG                             Performance Measure                            Outcome/Impact
 Goal              Goal
1 and 3   1. Administration and        Investigative reports are timely and presented in an    Administrative action,
             criminal violations       objective and factual manner. Memoranda are             convictions or pleas are
             relating to FCA           issued to management describing internal control        obtained for employees
             programs and              weaknesses or program deficiencies found during         and/or contractors found
             personnel are             the investigative process with suggestions to prevent   guilty of wrongdoing.
             effectively               and/or detect future wrongdoing.
                                                                                               Management actions taken
             investigated and
                                       70% of active cases will be less than two years old     against employees serve as
             reported.
                                       (from the date the case was opened).                    a deterrent to future
                                                                                               wrongdoing.
                                       100% of employee cases without criminal
                                       prosecution potential will be completed within one      FCA internal policies,
                                       year from opening the case.                             procedures and controls are
                                                                                               strengthened to prevent
                                                                                               and/or detect future
                                                                                               wrongdoing.
                                                                                               Investigations are more
          2. FCA employees and
                                                                                               successful because they are
             managers recognize
                                                                                               initiated in a timelier manner
             their responsibility to
                                                                                               and have better information.
             immediately report
             observed or                                                                       FCA employees are more
             suspected                                                                         willing to report real or
             wrongdoing to the IG.                                                             suspected wrongdoing
                                                                                               because they trust the
                                                                                               competence and fairness of
                                                                                               OIG’s investigations.
          3. Agency official and       Allegations of wrongdoing are received in a timely      The Chairman and
             Congress are kept         manner and are supported by specific information.       Congress are better
             fully and currently                                                               informed about OIG
                                       Summaries of investigations and the resulting
             informed of problems                                                              investigations,
                                       administrative or judicial actions taken are
             found in the process                                                              administrative and judicial
                                       incorporated into the Semiannual Report to
             of and resulting from                                                             consequences.
                                       Congress, along with any disagreements on the
             investigative
                                       actions taken or failure of management to act in a      Public confidence in the
             activities.
                                       timely and responsible fashion.                         integrity of FCA programs
                                       Findings made during the investigative process          and internal operations are
                                       concerning the problem at issue or systemic             heightened.
                                       problems are recognized and corrected or mediated
                                       by management.
                         REVIEW OF LEGISLATIONS AND REGULATIONS
Agency              OIG                             Performance Measure                            Outcome/Impact
 Goal               Goal
2        1. Maintain an effective       Processes are established and documented for            OIG input is part of the
            program for reviewing       identifying and circulating (as appropriate) relevant   decision making process in
            and commenting on           documents.                                              approving or amending
            proposed and existing                                                               legislation, regulations,
                                        Constructive comments on relevant documents are
            legislation and                                                                     circulars and other policy
                                        submitted by the deadlines requested by the office,
            regulations affecting the                                                           positions.
                                        Agency or staff circulating comments.
            Agency and the
                                                                                                Constructive criticism and
            Inspectors General          Document review activity is summarized for inclusion
                                                                                                creative alternatives offered
            community.                  in the Semiannual Report to Congress.
                                                                                                in OIG comments improve
                                                                                                the quality and usefulness of
                                                                                                documents initiated by the
                                                                                                Agency.
                                                                                                FCA Board and
                                                                                                management are informed
                                                                                                about the status of new or
                                                                                                pending legislation or
                                                                                                regulations initiated
                                                                                                externally.
                                            OUTREACH PROGRAM
  Agency              OIG                              Performance Measure                               Outcome/Impact
   Goal               Goal
1 and 3    1.   Agency personnel          Develop and maintain educational brochures or               Agency employees’
                understand and            pamphlets describing OIG roles and activities.              acceptance of and
                accept OIG’s role                                                                     cooperation with OIG
                                          Facilitate feedback from Agency employees and
                within FCA and the                                                                    activities is improved
                                          refine products and practices based on the feedback
                community at large.                                                                   through better
                                          to OIG products and educational materials.
                                                                                                      understanding. OIG
                                                                                                      programs and products are
                                                                                                      improved through feedback
                                                                                                      from Agency employees.
           2.   OIG staff provides        Time and resources are provided to OIG staff                Projects and activities of
                leadership to             members as an incentive to contribute to outside            adjunct organizations such
                organizations directly    organizations by serving on committees and holding          as the AGA, IIA, PCIE/ECIE,
                contributing to the       offices.                                                    CCIG, FLETC, and IGATI
                Inspectors General                                                                    are improved by OIG staff
                community.                                                                            contributions and
                                                                                                      participation.
                                                                                                      The Inspectors General
                                                                                                      community is more credible
                                                                                                      and effective.
           3.   OIG staff contributes     OIG staff will participate in projects that contribute to   Management practices at
                to special projects for   achieving the vision of a better Agency and                 the Agency are improved by
                improving the             government.                                                 OIG staff participation in
                Agency, the OIG                                                                       FCA special projects.
                community and the
                                                                                                      FCA programs and
                government.
                                                                                                      operations are more
                                                                                                      effective and efficient.
                 OFFICE OF INSPECTOR GENERAL
               OPERATING AND PERFORMANCE PLAN
                       FISCAL YEAR 2002

                                     Mission
The mission of the OIG is to be an agent of positive change, striving for continuous
          improvement in FCA’s management and program operations.

                            Goals and Objectives
    Audit and evaluate the Agency’s programs and operations to promote economy,
    efficiency and effectiveness.
    Investigate observed, alleged or suspected wrongdoing to prevent and detect
    fraud, waste, abuse and mismanagement in Agency programs and operations.
    Review and make recommendations regarding existing and proposed legislation
    and regulations relating to Agency programs and operations and the Inspectors
    General community
    Work with the Chairman and Agency management to improve program
    management within the Agency and in our own office; and work with the
    Inspectors General community and other related organizations to address
    government-wide issues.



                           Products and Services


          Product/Service        Budget       % Budget    FTE       % FTE
          Audits, Inspections,
          and Review             $447,985          54%      2.7       54%
          Products
          Investigations                            4%       .2        4%
                                 $33,184
          Regulation Review
                                  $16,592           2%       .1        2%
          and Comment
          Outreach               $331,840          40%          2     40%
          Centrally Budgeted
                                          0           0         0           0
          Items
          Total                  $829,601        100%           5    100%
                 Description of Products and Services
Audits, Inspections, and Review Products

   •   Approximately 6-10 evaluative reports per year (including annual financial audit).
       This includes technical advice and assistance to Agency officials in developing
       management information and financial reporting systems and in streamlining
       programs and organizations. It also includes survey production. At present, two
       surveys are produced in OIG for the direct benefit of the Agency for use in
       measuring performance. These two surveys are the Farm Credit System Survey
       and the Regulation Development Survey. In addition, each audit and inspection
       contains a customer survey. (This is directly linked to FCA Strategic Plan.)

Investigations

   •   Review of allegations. Testing information provided to determine whether an
       investigation should be opened. Maintaining OIG HOTLINE. Directing FCS
       Borrower issues to Agency components.

Review and Comment on Proposed and Existing Regulations and Legislation

   •   Responding to Congressional and Executive requests and inquiries. Reviewing
       and commenting on proposed and existing legislation and regulations effecting
       the Agency and the Inspectors General Community.

Outreach

   ● Educating employees about OIG’s role within the Agency. Lend leadership to
     organizations directly contributing to the IG community. Provide staff and make
     contributions to special projects and work groups for improving the Agency, the OIG
     community and the government. This includes but is not limited to: Semiannual
     reports to the Agency Chairman and Congress, participation external activities such
     as the President’s Council on Integrity and Efficiency as a member of the Executive
     Council on Integrity and Efficiency, Council of Counsels to Inspectors General. We
     also participate in Agency efforts, such as GPRA Initiative, Employee Council (work
     life issues), Telecommuting Pilot Program Coordinator, Administrative Burden
     Workgroup, Mentoring Program, EEO Advisory Committee, and the Federal
     Women’s Program.
                                 JUSTIFICATIONS

1100 Total Personnel Compensation
Amount required to fund salaries of OIG staff (4.80 FTE) charged with conducting audits
and investigations relating to Agency programs and operations. We are also
responsible for reviewing existing and proposed legislation and regulations to evaluate
their impact on economy and efficiency in the Agency and on the prevention of fraud
and abuse. Funds are also allocated for cash awards for deserving employees.

1200 Total Personnel Benefits
Benefits are the direct result of salaries, consistent with employees’ retirement systems,
health and other elected benefits.

2100 Travel and Transportation of Persons
Travel funds will be used by OIG staff for audit and investigative related matters. They
will also be used for travel related to training courses, professional association
meetings, a teambuilding session for all OIG staff, and two field office inspections. The
Excellence in Government program alone requires $2,500 in travel costs.

2200 Transportation of Things
This amount is necessary for anticipated express mail services throughout the year.

2300 Total Rent Communications, Utilities and Misc.
These funds will cover anticipated usage of telephone credit cards while on official
travel, long distance phone service in McLean, courier delivery services throughout the
year to hand-deliver information and reports to Congress and other groups, and pager
service for the Inspector General. Funds will also cover Lexis/Nexis service and a
separate Internet access for the anonymous hotline account.

2400 Printing and Reproduction
Cost of the Government Printing Office printing OIG memo paper and letterhead. This
amount should last for two years.

2500 Other Contractual Services
Contract services may be needed to assist in staff reviews of programs. The tuition
funds will be used for individual training classes for staff. Individual training classes are
a mandatory requirement of the Federal Yellow Book for auditors and of the legal bar
association for the Counsel to the IG. The Counsel to the IG has been nominated for
the Excellence in Government program, which costs $7,200. Membership fees will
cover the dues for professional organizations to which OIG staff belong such as the
Institute of Internal Auditors and Association of Government Accountants.

Government contractual funds will be used for miscellaneous training courses being
attended by staff at USDA, FLETC, and other government agencies. They will also be
used for contracts issued by other government agencies (Department of Labor and
General Services Administration) for independent reviews of such things as the
Agency’s financial statements and the OMB required IT security audit.

These funds will also cover the cost of annual maintenance agreements on the
velobinder and copier.

2600 Supplies and Equipment
To purchase miscellaneous text and reference books as well as on-going subscriptions.
Office supply funds will be used mainly to purchase supplies for the velobinder and
copier, which are used by the entire Agency. Non-cash awards will be given to staff at
the discretion of the IG.

3100 Equipment
Purchase of Acrobe Reader software and a black and white copier/printer to replace the
five-year old color copier.
OFFICE OF INSPECTOR GENERAL
  PROJECTED RESOURCE USE




Outreach
  41%

                                      Audits
                                       52%
           Leg/Reg
           Review    Investigations
             3%           4%
                                 OFFICE OF INSPECTOR GENERAL
                                  TOTAL IRM BUDGET 2002-2007

           IRM Budget Category          Object FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2006 CATEGORY
                                        Code                                                          TOTALS
Telephone and communications services   2329      600      600      600      600      600      600        3,600
Equipment and software rental           2338                                                                   0
Consulting services                     2501                                                                   0
Other services                          2528                                                                   0
Other services -Govt.                   2538    25,000   25,000   25,000   25,000   25,000   25,000     150,000
Training                                2525                                                                   0
Training -Govt.                         2535                                                                   0
Operation/maintenance-equip./software   2576     4,000    3,000    3,000    4,000    4,000    4,000      22,000
Supplies                                2609                                                                   0
Subscriptions and publications          2639                                                                   0
IT equipment                            3140    19,000    4,700   18,300                     18,700      60,700
Software                                3143      500      500      500      500      500      500        3,000
                  TOTALS                        49,100   33,800   47,400   30,100   30,100   48,800     239,300


                                                              Total IRM Budget - 2002-2007              239,300
                    OFFICE OF INSPECTOR GENERAL
                          FISCAL YEAR 2002

                    Contribution to Agency Outcomes


             Agency Outcomes          Budget     % Budget    FTE       % FTE
             1. Supervision of Risk
             2. Regulation             $16,592          2%       .1        2%
             3. Administrative        $813,009         98%      4.9       98%
             4. Reimbursable
             Office Total             $829,601        100%       5.0     100%
                Percent of Agency


                           Budget and Justifications

Total Office Budget                                                            $829,601
Total approved IRM Plan amount included in Office Budget                       $ 49,100

1100 Personnel Compensation                                                    $526,687

Justification
Amount required to fund salaries of OIG staff (4.80 FTE) charged with conducting audits
and investigations relating to Agency programs and operations. We are also
responsible for reviewing existing and proposed legislation and regulations to evaluate
their impact on economy and efficiency in the Agency and on the prevention of fraud
and abuse. Funds are also allocated for cash awards for deserving employees.

1200 Personnel Benefits                                                        $145,914

Justification
Benefits are the direct result of salaries, consistent with employees’ retirement systems,
health and other elected benefits.


1300 Benefits for Former Personnel                                             $     --

N/A

2100 Travel and Transportation of Persons                                      $ 19,000

Justification
OIG staff will use travel funds for audit and investigative related matters. Funds will also
be used for travel related to training courses, professional association meetings, a
teambuilding session for all OIG staff, and two field office inspections. One employee
will participate in the Excellence in Government program, which requires $2,500 in
travel costs.


2200 Transportation of Things                                                  $   100

Justification
This amount is necessary for anticipated express mail services throughout the year.


2300 Rent, Communications, Utilities and Misc.                                 $ 1,600
2300 Approved IRM Plan                                                         $ 600

Justification
These funds will cover anticipated usage of telephone credit cards while on official
travel, long distance phone service in McLean, courier delivery services throughout the
year to hand-deliver information and reports to Congress and other groups, and pager
service for the Inspector General. Funds will also cover Lexis/Nexis service and a
separate Internet access for the anonymous hotline account.

IRM Justification
The independent internet account is used for confidential reporting of fraud, waste,
abuse and mismanagement. The pager service is used by the IG. Counsel to the IG
uses Lexis/Nexis for research capabilities.

2400 Printing and Reproduction                                                 $ 1,000

Justification
Cost of the Government Printing Office printing OIG memo paper and letterhead. This
amount should last for two years.


2500 Other Contractual Services                                                $131,000
2500 Approved IRM Plan                                                         $ 29,000

Justification
Contract services may be needed to assist in staff reviews of programs. The tuition
funds will be used for individual training classes for staff. Individual training classes are
a mandatory requirement of the Federal Yellow Book for auditors and of the legal bar
association for the Counsel to the IG. The Counsel to the IG has been nominated for
the Excellence in Government program, which costs $7,200. Membership fees will
cover the dues for professional organizations to which OIG staff belong such as the
Institute of Internal Auditors and Association of Government Accountants.
Government contractual funds will be used for miscellaneous training courses being
attended by staff at USDA, FLETC, and other government agencies. They will also be
used for contracts issued by other government agencies (Department of Labor and
General Services Administration) for independent reviews of such things as the
Agency’s financial statements and the OMB required IT security audit.

These funds will also cover the cost of annual maintenance agreements on the
velobinder and copier.

IRM Justification
GISRA requires agencies to perform an audit of IT security on an annual basis.
The maintenance is needed to keep the OIG velobinder and copier in good working
order.

2600 Supplies and Materials                                              $ 3,500
2600 Approved IRM Plan                                                   $

Justification
To purchase miscellaneous text and reference books as well as on-going subscriptions.
Office supply funds will be used mainly to purchase supplies for the velobinder and
copier, which are used by the entire Agency. Non-cash awards will be given to staff at
the discretion of the IG.


3100 Equipment                                                           $ 800
3100 Approved IRM Plan                                                   $ 500

Justification
Purchase of Adobe Acrobat software.

IRM Justification
Software will be purchased to produce flowcharts in OIG products and create PDF files
and approve documents within our Web browser.
Annual Audit Plan FY 2002
      The annual audit plan is based on input from management and staff as well as
      other issues identified by OIG staff. Audits and inspections are planned to provide
      assurances to the CEO and FCA board that programs are operating effectively with
      appropriate controls. The Annual Audit Plan is intended to be a living document
      that is updated periodically throughout the year. It notes activities completed along
      with activities tentatively planned. Actual activities will most likely be selected from
      the areas listed below. However, actual coverage may change in order to be
      responsive to changing needs or circumstances

Audit of Financial Statements
      The OIG contracts with an independent accounting firm to conduct an audit of the
      FCA financial statement. During FY 2002 the OIG will deliver the audit opinion on
      the financial statements as of September 30, 2001. In future years, there is an
      expectation by management and the OMB that audit opinions will be issued closer
      to the end of the fiscal year. OIG will incorporate more interim audit work in its
      contract to ensure expectations are met.

Audit of the Office of the Chief Financial Officer
      The objective of this audit is to evaluate whether the Office of Chief Financial
      Officer is operating efficiently and determine whether initiatives to improve the office
      have been effective. This audit was in process at the beginning of the fiscal year
      and the report was issued.

GISRA
      The OIG is mandated to determine compliance with Government Information
      Security Reform Act. The OIG is exploring the alternatives of using experts from
      the Office of Examination, OIG auditors, and contractors to complete this audit.
      The audit will be completed by September 1, 2002

Contracting
      The objective of this audit is to determine if purchasing and contracting procedures
      are effectively implemented. This audit will follow up on recommendations from
      previous OIG reports and activities. This audit will start during February 2002.

Compensation
      This audit will determine whether the objectives of the FCA compensation program
      are being met. We expect to conduct the audit in three distinct phases. This
      approach will assure that management gets the benefits of audit results as work on
      the overall objective is completed.
Early Warning System
     The OIG contracted with Delclos/Walsh Associates Inc. to perform a review of the
     Early Warning System. The Contractor has completed work and provided a draft
     report to the OIG. I expect to release the report as a management study.

Inspections and Management Letters
     The OIG will conduct a variety of activities on areas and issues that merit review
     because of potential risk or operational weaknesses. These activities may be
     reported as management advisories or inspection reports. While planning these
     activities, we may determine the issues are broader and may expand the scope to
     audit the issues. Activities that OIG is currently considering or working on include:
            •   Office Quality Control Programs
            •   Productivity trends in examinations
            •   Flexible Spending Account Administration,
            •   Leave Bank procedures,
            •   Professional certifications,
            •   Evaluation of physical security practices,
            •   LARS use and costs
            •   Rural Development Act review
            •   Membership in professional organizations
            •   Use of Social Security numbers by FCA,
            •   PPM Process
            •   Relocation Expenses
            •   Use of Government Credit Cards
            •   Improper Payments
            •   Administrative operations of offices in McLean,
            •   Follow-up on previous management letters.
